            Office of Inspector General




September 30, 2005

ANTHONY J. VEGLIANTE
EXECUTIVE VICE PRESIDENT AND
 CHIEF HUMAN RESOURCES OFFICER

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: White Paper on the Nature of Grievances and the Initiatives Taken to
         Reduce and Prevent Them (Report Number HM-OT-05-001)

This white paper presents the results of the Office of Inspector General’s (OIG) review
of the nature (type and number) of backlogged grievances,1 filed by the Postal Service’s
four major unions—the American Postal Workers Union (APWU), the National
Association of Letter Carriers (NALC), the National Postal Mail Handlers Union
(NPMHU), and the National Rural Letter Carriers’ Association (NRLCA) (Project
Number 04YO005HM000). Our objectives were to determine: (1) the nature of
backlogged grievances for fiscal years (FY) 1999 through 2004 by location and identify
any trends that indicate systemic issues, and (2) the effectiveness of the initiatives the
Postal Service has implemented to reduce the number of backlogged grievances and to
prevent the filing of new grievances.

This white paper identifies for the Postal Service the top 10 types of grievances unions
file, and the ones that could cause a backlog. The Postal Service could use this
information to reduce the number of filings and the backlog, by establishing new
initiatives to target the causes for the grievances. By reducing the number of
grievances and settling them at the lowest possible level, the Postal Service can reduce
costs associated with grievances and improve labor relations with its unions.

                                               Background

The national agreements signed by senior-level Postal Service management and the
union presidents include grievance-arbitration procedures Postal Service management,




1
The Postal Service defines “backlogged grievances” as those that remain at Step 3 of the grievance process for
more than 56 days.
Nature of Grievances and the Initiatives Taken to                                                      HM-OT-05-001
 Reduce and Prevent Them


bargaining unit employees,2 and union representatives follow. These procedures allow
bargaining unit employees (also referred to as craft3 employees) and the four major
unions to resolve workplace disputes, disagreements, complaints, and concerns.

The grievance-arbitration process generally consists of three steps4 to resolve
grievances. The process includes a fourth step that is available at the national level and
used only when a case of contract interpretation is at issue.

Generally, the first step in the process requires bargaining unit employees who feel
aggrieved to discuss the issues with their immediate supervisors. Employees may also
seek union assistance at this step. If the employee and supervisor do not reach a
resolution, the employee can file a formal grievance through the union or the union can
do so on its own initiative. The next three steps involve formal discussions with
appropriate management and union representatives at the local, regional, or national
level. The process also allows appeals of unresolved grievances to arbitration, where a
Postal Service and union selected arbitrator makes a binding decision. (See
Appendix B for an illustration of the grievance-arbitration process.) The national
agreements also assume the Postal Service and its unions will “observe in good faith”
the grievance-arbitration process to settle or withdraw grievances at the lowest level
whenever possible.

The Government Accountability Office (GAO) reported in 19975 there had been little
progress in improving persistent labor-management problems due to the adversarial
attitudes of employees, unions, and management. In September 2003,6 we reported on
Postal Service and union labor relations, finding three primary reasons the Postal
Service and the four major unions did not follow the grievance-arbitration procedures:
(1) negative attitudes and behaviors exhibited by some Postal Service managers and
union representatives, (2) a lack of incentives or administration of penalties for reaching
agreements, and (3) differing business interests. Our report also acknowledged,
however, the cooperative efforts of Postal Service management and union officials to
implement new initiatives to help resolve grievances at the earliest step and improve
labor-management relations.




2
  Most bargaining unit employees are represented by one of the four major unions that negotiate with the Postal
Service for wages, hours, and other terms and conditions of employment. Bargaining unit employees include city and
rural letter carriers, clerks, mail handlers, special delivery messengers, maintenance employees, and motor vehicle
operators.
3
  Employees are organized along craft lines. The APWU represents clerks, motor vehicle operators, building and
equipment maintenance personnel, and vehicle maintenance personnel; the NALC represents city delivery carriers;
the NPHMU represents mail handlers; and the NRLCA represents rural delivery carriers.
4
  The APWU, NPHMU and the NRLCA refer to the various levels as Step 1 through Step 4. The NALC refers to the
levels as Step A and Step B, and as informal and formal. For the purpose of this report, we will refer to the levels as
Steps 1 through 4, with Step 1 meaning informal Step A, Step 2 meaning formal Step A, and Step 3 meaning Step B,
etc.
5
  U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management Problems (Report
Number GAO/GGD-98-1, October 1997).
6
  Postal Service and Union Labor Relations (Report Number LR-AR-03-012, September 30, 2003).

                                                          2
Nature of Grievances and the Initiatives Taken to                               HM-OT-05-001
 Reduce and Prevent Them


This report shows the progress the Postal Service and its four major unions have made
in improving the effectiveness of the grievance-arbitration process and their
relationships since September 2003.

                          Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in detail in Appendix C.

                                      Prior Audit Coverage
We list our prior audit coverage in detail in Appendix D.

                                                    Results

From FYs 1999 through 2004, the Postal Service experienced an overall 21 percent
decrease in the number of grievances filed by the four major unions, with a 15 percent
decrease occurring from FYs 2003 to 2004 alone. This decline was generally across-
the-board, with the exception of the Pacific and Southwest areas. However, all nine of
the Postal Service areas experienced decreases in grievances filed between FYs 2003
and 2004, with the Western and Southeast Areas experiencing the biggest decreases.
Even more significant was the overall 83 percent decrease in the number of backlogged
grievances from FYs 1999 to 2004 and the 66 percent decrease just from FYs 2003 to
2004.

We can largely attribute the reductions in grievances to several initiatives the Postal
Service and its four major unions have successfully implemented to improve labor-
management relations and the grievance-arbitration process. These include
establishment of a new performance-based pay system to evaluate and hold Postal
Service managers and supervisors accountable for improving the labor management
climate, and the development of joint contract interpretation manuals to provide all
parties a better understanding of the national agreements.

Even though the numbers of filed and backlogged grievances are at an all-time low, we
identified several trends related to issues that traditionally generate grievances. For
example, for the last two years (FYs 2003 and 2004), the top three issues grieved
pertained to letters of warning, overtime assignments, and cross craft assignments.
Further, we estimated the Postal Service could incur approximately $1.3 billion in costs
associated with labor-management issues for FYs 2000 through 2005, including
$807.6 million in known costs, and an additional $499 million in estimated costs through
the end of FY 2005. However, this amount should decrease over time due to the
reduced number of filed and backlogged grievances.

In addition, although the Postal Service cannot accurately attribute all costs to specific
grievances, management said they will be able to do this once they complete a




                                                       3
  Nature of Grievances and the Initiatives Taken to                                                    HM-OT-05-001
   Reduce and Prevent Them


  modification to the Grievance-Arbitration Tracking System7 (GATS) in December 2005
  and implement it nationwide.

  Number of Grievances Filed by the Four Major Unions

  As shown in Table 1, from FYs 1999 to 2004, there was an overall 21 percent decrease
  in the total number of grievances filed by the four major unions; and from FYs 2003
  to 2004 alone, there was a 15 percent decrease. Specifically, unions filed
  198,525 grievances in FY 2003 and the number dropped to 168,902 in FY 2004.

  The NRLCA experienced the largest overall decrease of 23 percent from FYs 2003 to
  2004; for the same time period the NPMHU showed a slightly lower decrease of
  20 percent; and the NALC and APWU had decreases of 17 percent and 12 percent,
  respectively.

  In addition, the ratio of grievances filed per 100 bargaining unit employees was 25:100
  in FY 2004–its lowest since FY 2001 when it was 31:100. There was a 12 percent
  decrease in this ratio from FYs 2003 to 2004. While this is an improvement,
  25 grievances filed per 100 bargaining unit employees is still high and indicates the
  need for the unions and management to continue their efforts to prevent the filing of
  grievances.

  Table 1: Number of Grievances Filed by the Four Major Unions and Ratio of
          Grievances to Bargaining Unit Employees

                                                            Number of Grievances Filed
                                                                                         FYs 2003 to 2004      FYs 1999 to 2004
                                                                                           Percentages          Percentages of
       Union              FY        FY         FY         FY         FY         FY          Decrease/             Decrease/
                         1999      2000       2001       2002       2003       2004          Increase              Increase
APWU                   122,303     82,181    136,867    138,104     99,255    87,710            -12                     -28
NALC                    59,276     47,495     62,614     63,216     64,187    53,183            -17                     -10
NPMHU                   29,288     20,789     31,716     31,920     29.776    23,899            -20                     -18
NRLCA                    2,680      2,335      3,605      3,659      5,307     4,110            -23                     +53
  Totals               213,547    152,800    234,802    236,899   198,525    168,902            -15                     -21
Number of
bargaining unit
employees              765,599    755,706    745,600    721,574   702,341    682,769             -3                     -11
Ratio of grievances
to bargaining unit
employees               28:100    20:100     31:100     33:100     28:100     25:100            -12                     -12
  Source: GATS
  Note: Percentages were rounded

  It should also be noted the number of bargaining unit employees represented by the
  four major unions has decreased from FYs 1999 to 2004 by 11 percent. Table 2 shows

  7
   GATS is the system the Postal Service uses for tracking grievances filed, obtaining grievance data, and scheduling
  arbitration cases.

                                                           4
Nature of Grievances and the Initiatives Taken to                                                   HM-OT-05-001
 Reduce and Prevent Them


the number of bargaining unit employees represented by each of the four unions during
the 6-year period.

Table 2: Number of Bargaining Unit Employees by Postal Service Union
                                                      Number of Bargaining Unit Employees
                                                                                  FYs 2003 to 2004           FYs 1999 to 2004
                                                                                   Percentages of             Percentages of
                        FY         FY         FY        FY       FY        FY        Decrease/                  Decrease/
        Union          1999       2000       2001      2002     2003      2004        Increase                   Increase

APWU                  349,117    281,956   327,279    312,026    298,099    280,695            -6                     -20

NALC                  242,300    241,079   240,295    232,684    229,404    228,140            -1                     -6

NPMHU                  62,237     60,851     60,102    58,940     56,776     54,769            -4                     -12

NRLCA                 111,945    114,643   117,924    117,924    118,062    119,165            1                       6
Total Number
of bargaining unit
employees             765,599    755,706   745,600    721,754    702,341    682,769            -3                     -11
Source: Postal Service Annual Report for FYs 1999–2001, 2003 and 2004, and the Human Resource Management
Information System for FY 2002
Note: Percentages were rounded

Number of Grievances Filed by Postal Service Area

Seven out of nine Postal Service areas of operation8 experienced decreases in the
number of grievances filed between FYs 1999 and 2004. For example, the Western
Area experienced the biggest decrease (44 percent) with 27,025 grievances filed in
FY 1999 and 15,068 filed in FY 2004. The Eastern/Allegheny Area experienced a
similar decrease (40 percent) with 43,490 grievances filed in FY 1999 and 26,012 filed
in FY 2004.

Conversely, the Pacific Area experienced the biggest increase (25 percent) with
20,246 grievances filed in FY 1999 and 25,390 in FY 2004. The Southwest Area also
experienced an increase (8 percent) with 17,930 grievances filed in FY 1999 and
19,317 in FY 2004.

Additionally, there were decreases in the number of grievances filed between FYs 2003
and 2004 in all nine Postal Service areas:

    •    The Western Area experienced the biggest decrease (25 percent) with
         20,097 grievances filed in FY 2003 and 15,068 filed in FY 2004.
    •    The Southeast Area experienced a similar decrease (21 percent) with
         28,900 grievances filed in FY 2003 and 22,759 filed in FY 2004.



8
 The nine areas of operation are Capital Metro, Eastern/Allegheny, Great Lakes, New York Metro, Northeast, Pacific,
Southeast, Southwest, and Western.

                                                         5
Nature of Grievances and the Initiatives Taken to                                                HM-OT-05-001
 Reduce and Prevent Them


    •                      The Pacific Area experienced the smallest decrease (3 percent) with
                           26,050 grievances filed in FY 2003 and 25,390 filed in FY 2004.

Graph 1 illustrates the trends for the numbers of grievances filed on behalf of
employees for FYs 1999 to 2004 by Postal Service area.

                                      Graph 1: Number of Grievances Filed by Postal Service Area
                           50,000

                           45,000

                           40,000
    Number of Grievances




                           35,000

                           30,000

                           25,000

                           20,000

                           15,000

                           10,000

                            5,000

                                 0
                                      FY 1999    FY 2000    FY 2001     FY 2002     FY 2003      FY 2004
                                                            Postal Service Areas

                                            New York Metro                      Northeast
                                            Eastern/Allegheny                   Western
                                            Pacific                             Southwest
                                            Southeast                           Great Lakes
                                            Capital Metro

                           Source: GATS




                                                               6
Nature of Grievances and the Initiatives Taken to                              HM-OT-05-001
 Reduce and Prevent Them



Types of Grievances Filed

Even though the number of grievances filed is at its lowest since FY 1999, we identified
several trends related to issues that traditionally generate grievances. Specifically, from
FYs 1999 through 2004, the top 10 issues were generally the same each year, with
nine types of grievances consistently appearing:

    •   Letters of warning
    •   Cross craft assignments
    •   Overtime assignments
    •   Workhours
    •   Suspensions of 14 days or less
    •   Performance of bargaining unit work
    •   Handbooks and manuals
    •   Grievance and arbitration process
    •   Unilateral action

We also determined the number one issue grieved for the last 5 years (FYs 2000
through 2004) was letters of warning (discipline). For the last 2 years (FYs 2003 and
2004), the top three issues pertained to:

    •    Letters of warning
    •    Overtime assignments
    •    Cross craft assignments

Appendix E is a complete description of the types of grievances filed. Appendix F is a
table of the top 10 types of grievances filed for FYs 1999 through 2004.

Number of Backlogged Grievances Filed by Four Major Unions

Like the number of grievances filed, the number of backlogged grievances is at its
lowest since FY 1999. As shown in Table 3, all four major unions significantly reduced
the number of backlogged grievances from FYs 1999 to 2004. Overall, there was an
83 percent decrease for the 6-year period and a 66 percent decrease from FYs 2003 to
2004 alone.

The NALC had the biggest decrease (93 percent) in its backlog, falling from 7,979 in
FY 1999 to 532 in FY 2004, followed by the APWU, with a decrease of 83 percent from
19,270 in FY 1999 to 3,217 in FY 2004.




                                                    7
Nature of Grievances and the Initiatives Taken to                                             HM-OT-05-001
 Reduce and Prevent Them


Table 3: Number of Backlogged Grievances Filed by Union for FYs 1999 to 2004

                                          Number of Backlogged Grievances

                                                                       FYs 2003 to 2004   FYs 1999 to 2004
            FY       FY        FY       FY           FY         FY      Percentages of     Percentages of
Union      1999     2000      2001     2002         2003       2004       Decrease           Decrease

APWU      19,270    16,169   21,472    15,414       8,762      3,217         -63                -83

NALC       7,979     8,812    5,015     2,068       2,018       532          -74                -93

NPMHU      2,789     3,585    3,902     4,474       3,876      1,208         -69                -57

NRLCA        128       176       194     251         318         90          -72                -30

Totals    30,166    28,742   30,583    22,207   14,974         5,047         -66                -83
Source: GATS
Note: Percentages were rounded

Number of Backlogged Grievances by Postal Service Areas

The Postal Service’s nine areas of operation had significant reductions in the number of
backlogged grievances between FYs 1999 and 2004, with each area decreasing its
backlog by at least 70 percent:

    •    The Western Area had the biggest decrease (89 percent), going from
         3,833 grievances in FY 1999 to 406 in FY 2004.
    •    The Southeast Area experienced a similar decrease (85 percent), going from
         4,040 grievances in FY 1999 to 599 in FY 2004.
    •    The smallest decrease was in the Capital Metro Area (74 percent), going from
         654 grievances in FY 1999 to 172 in FY 2004.

The nine areas of operation also had significant reductions in the number of backlogged
grievances between FYs 2003 and 2004, with each area decreasing its backlog by at
least 50 percent:

    •    The Western Area had the biggest decrease (77 percent), going from
         1,788 grievances in FY 2003 to 406 in FY 2004.
    •    The Southwest Area experienced a similar decrease (76 percent), going from
         2,572 grievances in FY 2003 to 623 in FY 2004.
    •    The smallest decrease was in the New York Metro Area (54 percent), going from
         1,486 grievances in FY 2003 to 678 in FY 2004.




                                                           8
Nature of Grievances and the Initiatives Taken to                                                  HM-OT-05-001
 Reduce and Prevent Them


Graph 2 illustrates trends in backlogged grievances for FYs 1999 to 2004 by Postal
Service Area.

                                         Graph 2: Number of Backlogged Grievances by Postal Service Area

                                     7,000
  Number of Backlogged Grievancess




                                     6,000

                                     5,000

                                     4,000

                                     3,000

                                     2,000

                                     1,000

                                        0
                                             FY 1999    FY 2000    FY 2001    FY 2002    FY 2003     FY 2004
                                                                   Postal Service Area

                                                  New York Metro                  Northeast
                                                  Eastern/Allegheny               Western
                                                  Pacific                         Southwest
                                                  Southeast                       Great Lakes
                                                  Capital Metro

                                       Source: GATS

Types of Backlogged Grievances

Although the number of backlogged grievances is at its lowest, we identified several
trends related to issues that traditionally generate grievances. For example, the top 10
types of backlogged grievances represented approximately 30 percent of all grievances
in the backlog. In addition, from FYs 1999 through 2004, five types of grievances
consistently appeared each year:


                                                                   9
Nature of Grievances and the Initiatives Taken to                               HM-OT-05-001
 Reduce and Prevent Them



    •   Cross craft assignments
    •   Employee classification
    •   Handbooks and manuals
    •   Unilateral action
    •   Workhours

In FYs 2003 and 2004, the three most common grievances in the backlog were:

    •    Cross craft assignments
    •    Employee classification
    •    Unilateral action

We noted several additional trends pertaining to the issue of performance of bargaining
unit work, which was also in the top 10 from FYs 2001 through 2004, and the grievance
and arbitration process, which was in the top 10 every year except FY 2001. Further,
the issue pertaining to the reversion of positions appeared for the first time as one of the
top 10 in FY 2004, along with clerk craft issues, which reappeared in the top 10 for the
first time since FY 2002.

We also noted some reversed trends. Specifically, overtime assignments was a top 10
issue from FYs 1999 until 2003, but not in FY 2004. Suspensions of 14 days or less
was also an issue in the top 10 in FYs 1999 and 2000 but it has not appeared in the
top 10 since then. Appendix E is a complete description of the types of backlogged
grievances. Appendix G is a table of the top 10 types of backlogged grievances for
FYs 1999 through 2004.

We discussed these trends with the vice president, Labor Relations, who told us the
high number of backlogged grievances related to cross craft assignments is probably
the result of the Postal Service downsizing its workforce, coupled with local Postal
Service management attempting to maximize the flexibility of a reduced workforce. He
also believes the high number of backlogged grievances pertaining to a unilateral action
and the grievance and arbitration process are the result of union representatives
ensuring their interests are protected when they believe the National Labor Relations
Act has been violated. He said this is the case even if the issues do not necessarily
pertain to hours, wages, or other terms in conditions of employment.

Comparison of Top 10 Types of Grievances Filed to Backlogged Grievances

A comparison of the top 10 types of grievances filed to backlogged grievances in
FY 1999 through 2004, showed several trends. For example, the top 10 types for both
categories (filed and backlogged unless otherwise noted) contained the following six:

    •   Cross craft assignments
    •   Prohibition of unilateral action
    •   Handbooks and manuals

                                                    10
Nature of Grievances and the Initiatives Taken to                            HM-OT-05-001
 Reduce and Prevent Them


    •   Grievance and arbitration process (except for FY 2001 for backlogged)
    •   Performance of bargaining unit work (was prevalent FYs 2001 to 2004 for
        backlogged and FYs 2000 to 2004 for grievances filed)
    •   Work hours

We also found several grievance types that consistently appeared in the top 10 types of
grievances backlogged, but did not appear as frequently in the top 10 grievances filed.
Specifically, issues pertaining to casuals employed “in lieu of” were in the backlogged
grievances from FYs 2000 through 2004; however, this issue did not appear in the
top 10 filed for FYs 1999 through 2004. We also found issues pertaining to employee
classification were in the top 10 grievances backlogged each year from FYs 1999
through 2004, but appeared in the top 10 grievances filed only in FYs 1999 and 2001.

We also noted several grievance issues that appeared consistently in the top 10 types
of grievances filed, that did not appear in the top 10 types of backlogged grievances.
Specifically, grievances pertaining to discipline, which include letters of warning and
suspensions of 14 days or less, were found every year for grievances filed for FYs 1999
through 2004. However, there were no issues pertaining to discipline in the top 10
backlogged grievances from FYs 2001 through 2004. This was likely caused by
discipline related grievances being resolved at lower step levels.

Number of Grievances Pending Arbitration

The vice president, Labor Relations, told us his office reviews statistics on pending
grievances to provide an indication to the Postal Service of its success in reducing the
backlog. Reviewing these statistics allows the Postal Service to ascertain the
effectiveness of changes made to ensure issues are resolved at the lowest levels of the
grievance-arbitration process. As shown in Table 4, the Postal Service reduced its
number of grievances pending arbitration by 38 percent between FYs 2003 and 2004
alone and overall by 63 percent between FYs 1999 and 2004.

Consistently between FYs 1999 through 2004, the NRLCA contributed no more than
2 percent of the overall cases pending arbitration each year. These numbers increased
by 180 percent, however, between FYs 1999 and 2004. According to Postal Service
management, this is likely due to an increase in disciplinary actions for NRLCA
employees, which they said represent 75 percent of the cases the NRLCA appealed to
arbitration. Postal Service management told us they were not aware of any national
condition or initiative responsible for the number of disciplinary actions issued that
would warrant action at their level. Management also explained this type of grievance is
based on the specific circumstances of each individual case.




                                                    11
Nature of Grievances and the Initiatives Taken to                                                   HM-OT-05-001
 Reduce and Prevent Them


Table 4: Number of Grievances Pending Arbitration for FYs 1999 through 2004

                                          Number of Grievances Pending Arbitration

                                                                         FYs 2003 to 2004       FYs 1999 to 2004
                                                                          Percentages of         Percentages of
               FY       FY        FY         FY        FY       FY          Decrease/              Decrease/
    Union     1999     2000      2001       2002      2003     2004          Increase               Increase

APWU          93,972   67,877    82,385     93,819   58,505    37,171           -36                    -60

NALC          18,147   19,290    15,387      9,673    5,117     2,503           -51                    -86

NPMHU          4,829    5,781     6,348      7,483    6,875     3,651           -47                    -24

NRLCA             56      65         76         60      159       157            -1                   +180


Totals       117,004   93,013   104,196    111,035   70,656    43,482           -38                    -63


Source: GATS
Note: Percentages were rounded

Postal Service Management Initiatives

The Postal Service has implemented a number of initiatives over the past 5 years that
have led to the overall reduction in the number of grievances filed and the number of
backlogged grievances. Specific initiatives implemented are as follows:

      •     In August 2002, the Postal Service issued the Human Resources Transformation
            Plan (the “Plan”) consisting of several strategies. In particular, Strategy VI of the
            “Plan,” Build the Labor Management Relationship, expands various joint
            employee involvement and quality of work-life initiatives with labor unions and
            provides training to both management and bargaining unit employees in
            administering the union contracts. In addition, it includes development and
            expansion of alternatives to traditional discipline and dispute resolution methods.
      •     In FY 2002, the Workplace Environment Improvement Advisory Committee was
            tasked with identifying troubled worksites and tracking the progress of action
            plans implemented to improve work environments. Since the inception of the
            program, the number of troubled worksites has been reduced from 39 to 8.
      •     In FY 2003, the Postal Service created managerial accountability for workplace
            environment issues by including the Voice of the Employee (VOE) Survey9 in the
            National Performance Assessment (NPA).10 As a result, each area and district is
            required to improve their VOE Survey Index11 score.

9
 The VOE survey is a data collection instrument the Postal Service uses to obtain information from all employees
(Postal Service-wide) regarding how they feel about their workplace environment.
10
   The NPA was implemented in FY 2003, to improve individual evaluations, with an emphasis on individual and unit
contribution towards organizational goals.
11
   The VOE Survey Index tracks employee responses to six VOE survey questions focused on key barriers to an
improved workplace as perceived by employees. The six questions that make up the index address recognition,
accountability, exclusion, sexual harassment, being treated with dignity and respect, and communication.

                                                        12
Nature of Grievances and the Initiatives Taken to                                                     HM-OT-05-001
 Reduce and Prevent Them


     •   In FY 2003, the Postal Service initiated a new Performance-Based Pay
         System for 800 executives to improve accountability and recognize individual
         and team efforts.12 In FY 2004, 78,000 non-bargaining employees joined the
         800 participating executives in the pay-for-performance (PFP) program. The
         program includes core requirements specifically related to supervisor and
         manager duties in the dispute resolution process.

Joint Initiatives Between Postal Service Management and the Four Major Unions

The Postal Service has implemented a number of joint initiatives with its four major
unions that have both positively impacted the number of grievances filed and led to the
overall reduction in the number of backlogged grievances. For example, in June 2004
the Postal Service developed a joint contract manual with the APWU. In July 2003 it
developed a contract interpretation manual with the NPMHU. These manuals, along
with a joint contract manual previously negotiated with the NALC, were an effort to
reduce tension between labor and management on the workroom floor and eliminate
disagreements over the meaning of the provisions of the national agreements. These
and other joint initiatives include:

     •   Postal Service management and the APWU:
         o Negotiated a national agreement from 2000 through 2004, which included a
           reassessment of the grievance procedures to enhance efficacy during
           contract negotiations. Actions taken include an in-depth examination of the
           propriety of discipline during the first and second grievance steps.
         o Agreed on December 19, 2002, to jointly develop a Maintenance Skills
           Development Program. As a result, hundreds of maintenance employees
           have successfully developed new skills which have enhanced the employees’
           upward mobility and provided the Postal Service with a pool of skilled
           employees.
         o Developed a training program for their Joint Contract Interpretation Manual in
           June 2004. The target audience includes local union and Postal Service
           management officials who routinely administer the collective bargaining
           agreement. It is anticipated completion of training will be no later than the
           end of FY 2005.
         o Agreed on June 3, 2004, to jointly review/remand/settle every grievance
           pending at the national level that was appealed prior to 1998. This directly
           led to the reduction of several hundred of the oldest grievances at the national
           level.
         o Issued on May 18, 2005, a jointly developed Article 12 "Principles of Seniority,
           Posting and Reassignments" Questions and Answers (Q&A) to assist local
           parties in employee reassignment issues. It is anticipated that the Q&As will


12
 This initiative was recommended by the Postal Service OIG in its report entitled Effectiveness of United States
Postal Service (USPS) Grievance-Arbitration Procedures (Report Number LM-MA-99-002, March 26, 1999).

                                                         13
Nature of Grievances and the Initiatives Taken to                                                     HM-OT-05-001
 Reduce and Prevent Them


             directly reduce the number of disputes, inquiries and grievances arising from
             reassignments.
         o Signed a Memorandum of Understanding (MOU) in June 2005 updating
           procedures for reviewing grievances and scheduling arbitration hearings.
           The MOU requires management and the union to review all pending Step 3
           grievances and appeals to arbitration, including cases that have been
           appealed directly from Step 2 to arbitration. The goal of the MOU is to
           “improve the grievance-arbitration process” and reduce the backlog of
           grievances. The MOU extends and supersedes an agreement signed in
           February 2003, which did not provide for a review of cases that were
           appealed to arbitration from Step 2.
         o Developed in June 2005, a Joint Retail Training, Lead Sale and Service
           Associate course for all new sales and service associates to ensure the
           continued high quality of retail personnel.
         o Agreed on July 11, 2005, to include sales and service associates in the Postal
           Service Ambassador program. This program entails the joint selection of one
           retail sales and service associate from each district to serve as an
           ambassador who will champion the benefits of upgrading Postal Service
           lobby environments for marketing products and services. The ambassador
           also appears in internal promotions and local publicity events.
         o Signed a contract extension agreement in August 2005 to extend the current
           2000 through 2005 national agreement through November 2006.
           Noneconomic highlights of the extension include:

                          Priority reassignment for employees from facilities undergoing
                           excessing.
                          Expansion of the Modified Work Week pilot.13
                          Increased on-line access to information.
                          Priority scheduling of certain grievances for national arbitration.
     •   Postal Service management and the NALC:
         o Wrote a Joint Contract Administration Manual (JCAM) in 1998. The JCAM
           provides a joint explanation of the collective bargaining agreement for proper
           application. It is intended to enable the local parties to resolve problems
           without grievances and to resolve grievances early in the grievance-
           arbitration procedures. The JCAM is updated annually.
         o Developed and piloted an alternative grievance procedure called the Dispute
           Resolution Process (DRP) jointly in 1998 to decide grievances swiftly,
           educate the local parties on contract compliance and cooperation, and
           reduce/prevent future grievances.



13
  The contract extension agreement provides for the establishment of a minimum of 18 pilot sites during the term of
the extension. Modified work-week programs allow employees to select work schedules of four 10-hour days.

                                                         14
Nature of Grievances and the Initiatives Taken to                                                     HM-OT-05-001
 Reduce and Prevent Them


         o Trained Dispute Resolution Teams14 (DRT) to apply the JCAM when deciding
           grievances at Step B–the second formal step of the process. The DRTs
           educate the local parties on contract compliance through decisions and local
           training to avoid “repeat grievances” on the same issues and to prevent other
           grievances. This joint training is done annually.
         o Achieved, according to Postal Service officials, a 96 percent reduction in the
           number of grievances pending regional arbitration from September 1998 to
           September 2005 (from 25,479 to 1,089); and a 46 percent reduction in
           arbitration appeals from 2002 to 2005. The parties have also reduced the
           number of grievances flowing from the local level as well as the number of
           grievances initiated. For example, Step B appeals for 2005 are down
           32 percent from 2002, and Step A appeals are down 13 percent for the
           same period.15
         o Negotiated a 5-year collective bargaining agreement in 2001 ensuring
           long-term stability. The new agreement included the replacement of the
           former grievance procedures with the DRP.
         o Signed a MOU in April 2002 to implement an intervention process to identify
           and correct troubled work places. Five Postal Service districts were test sites
           for refining the intervention process. As a result, successful interventions
           were conducted in 10 more sites. In addition, they initiated national joint
           training for the process in January 2004 and completed the training in the
           spring of 2005.
     •   Postal Service management and the NPMHU:
         o Negotiated a national agreement from 2000 through 2004 which included a
           reassessment of the grievance-arbitration procedures to enhance efficacy
           during contract negotiations. Actions taken include an in-depth examination
           of the propriety of discipline during first and second grievance steps as well
           as deferral of suspensions which removes back pay as one of the former
           impediments to resolution.
         o Implemented the results of a container towing test in December 2004 that
           resulted in the resolution of pending safety grievances and an update to the
           Safety Handbook. This was a joint endeavor that allowed an increase from
           three to seven pieces of powered industrial equipment employees could tow
           safely and productively in the Postal Service’s Priority Mail Processing
           Centers and Logistic and Distribution Centers.
         o Signed a contract extension agreement in May 2003 to extend the 2000
           through 2004 national agreement through November 2006.
         o Trained more than 1,000 union and management representatives between
           July and October 2003 on how to use their Contract Interpretation Manual to
           resolve disputes without the need to file a grievance or proceed to arbitration.
14
  The DRT consists of a management and union designee.
15
  These dates were outside the scope of our review and, therefore, do not appear in the tables or graphs contained in
this report.

                                                         15
Nature of Grievances and the Initiatives Taken to                                                         HM-OT-05-001
 Reduce and Prevent Them


         o Worked to resolve workplace issues which resulted in the elimination of
           two offices from the list of troubled work sites.
    •    Postal Service management and the NRCLA:
         o Signed, in conjunction with the NALC, a MOU in May 2003 to establish a joint
           task force to expedite resolution of the backlog of grievances on all city/rural
           jurisdictional disputes. In May 2004, they signed a second MOU to establish
           a process and guidelines for a review of all outstanding city/rural grievance
           issues.
         o Signed a contract extension agreement in November 2004 to extend the 2000
           through 2004 national agreement through 2006. This contract extension
           included a MOU establishing a joint task force consisting of national union
           officers and Postal Service Headquarters operations and labor relations
           leaders, to discuss future developments that may impact the rural carrier
           craft.

In discussions with the presidents of the APWU and the NPMHU, they affirmed that the
introduction of the joint contract interpretation manuals and associated training have
helped to reduce the number of grievances filed and backlogged. They also pointed to
an increased commitment by all parties to quickly resolve grievances. The president of
the NRLCA stated that in addition to the partial resumption of joint training16 on mail
count procedures, which has traditionally generated considerable grievance activity, his
union has been aggressively pursuing meetings with Postal Service management to
resolve issues. He also stated the Postal Service’s PFP program has changed attitudes
within the organization to resolve grievances more quickly. Additionally, while they
generally do not conduct trend analyses of the grievances filed and backlogged, all
three union presidents indicated they track grievances either by contractual issues or by
areas of the country to identify troubled work sites and reinforce measures to reduce the
backlog. They further stated they expect the number of filed and backlogged
grievances to continue to trend downward.

Postal Service Management Conducts Trend Analyses

According to Postal Service officials, the implementation of trend analyses has resulted
in some reverse trends in grievance issues. Specifically, the vice president, Labor
Relations, told us his office regularly reviews GATS reports to identify potential issues
and to determine if trends in the grievance data are developing. One of their analyses
is to compare the overall number of cases pending arbitration on the first day of each
month to the number of cases at the beginning of the FY, and note the variance. For
example, the manager, Labor Relations Systems provided us the analysis conducted for
the month of July 2005, where it was noted that every Postal Service area decreased its

16
   The NRCLA president stated there has been a gradual return to normalcy following a contentious 2002 national
mail count, in which numerous grievances were filed by the union, and management withdrew from participating in
joint mail count training. A mail count is the evaluation of a route to determine eligibility for evaluated compensation
or adjustment in evaluated compensation.


                                                           16
Nature of Grievances and the Initiatives Taken to                                                      HM-OT-05-001
 Reduce and Prevent Them


number of cases pending arbitration except for the Capital Metro Area where the
pending cases increased by two.

The vice president, Labor Relations, also told us that if negative trends are developing,
his office notifies the respective area officials so they can work directly with union
representatives to determine why the trends are occurring. This information can be
used to determine if the issues are due to interpretations of the contract, personality
issues, or other reasons. The Labor Relations office can modify the contract
interpretation manual(s) if necessary to provide a better understanding for employees
and management.

Known Costs Associated With Postal Service Labor-Management Issues

We estimate the Postal Service could incur about $1.3 billion in costs associated with
Postal Service labor-management issues for FYs 2000 through 2005.17 This figure
includes $807.6 million in known costs (listed in Table 5) and an additional $499 million
in estimated costs through the end of FY 2005.

Also shown in Table 5 is a significant increase in known costs for FY 2003. In fact,
costs almost doubled from FY 2002, when the Postal Service spent $113.6 million
compared to $225.3 million in FY 2003. The majority of this cost increase was
associated with grievance settlements; however, steward costs also significantly
increased in FY 2003 compared to FYs 2001 and 2002.


Table 5: Known Costs Associated With the Postal Service’s Labor Management
         Issues (In Millions)

                  Known Costs                  FY 2000     FY 2001       FY 2002 FY 2003 FY 2004       Totals

     Arbitrators’ Costs                           $ 6.6         $ 7.7      $ 6.4    $ 7.4    $ 1.8      $29.9
     Grievance Settlements                         63.1          54.2       41.2    118.6     112.0      389.1
     Interest Back Pay                              2.2           1.5        2.0      1.9        .1        7.7
     Steward Costs                                 35.3          17.1       31.4     58.9      61.7      204.4
     Equal Employment Opportunity                   5.0           5.0        3.2      5.6       3.5       22.3
     Merit Systems Protection Board                 2.3           2.4        1.6      1.6       1.1        9.0
                                          18
     Salaries for Labor Relations Personnel         25.8          27.1       27.8     31.3      33.2     145.2

      Totals                                     $140.3         $115.0     $113.6   $225.3   $213.4     $807.6

Source: GATS and the Payroll Employee Master File

17
   It should be noted that in April 2002, the Postmaster General estimated that $300 million was spent each year on
labor-management disagreements.
18
   According to Postal Service management, Labor Relations personnel do not spend 100 percent of their time
processing and resolving grievances and, therefore, salary costs would be realized whether or not there were
grievances.

                                                           17
Nature of Grievances and the Initiatives Taken to                              HM-OT-05-001
 Reduce and Prevent Them



According to Postal Service management, the grievance settlements during FYs 2003
and 2004 were the result of the initiatives implemented by the Postal Service and the
four major unions to resolve disputes at the earliest possible step. Costs related to
labor-management issues should decrease in future years due to the reduction in the
total number of grievances backlogged and grievances filed.

Additionally, management has pursued initiatives aimed at more accurately attributing
labor-management costs to specific types of grievances. For example, Postal Service
management implemented a GATS modification in October 2003, as recommended in
our September 2003 report, which attributes settlement costs to the corresponding
formal grievances. In addition, management told us they are piloting another
modification to the GATS that will accurately attribute settlement costs to the
corresponding informal grievances. Management stated they expect this modification to
occur by December 31, 2005, and then be implemented nationwide. As a result of
these modifications, management can better determine which grievances are costing
the Postal Service the most money.

                                               Conclusion

This white paper identifies for the Postal Service the top 10 types of grievances unions
filed, and the ones that could cause a backlog. The Postal Service could use this
information to reduce the number of filings and the backlog, by establishing new
initiatives to target the causes for the grievances.

The initiatives implemented by the Postal Service and the labor unions have already
yielded positive results, including a significant reduction in the number of grievances
filed and backlogged. By reducing the number of grievances and settling them at the
lowest possible level, the Postal Service can reduce costs associated with grievances
and improve labor relations with its unions.

While the Postal Service has experienced a significant increase in known costs related
to labor-management issues for FY 2003, costs should decrease in future years due to
the reduction in the total number of grievances backlogged and grievances filed. In
addition to potential cost savings, relationships among Postal Service management,
employees, and unions should continue to improve.

With the modification to GATS in December 2005, the Postal Service should have a
proper and accurate means of assigning costs associated with labor-management
issues to specific grievances.

The vice president, Labor Relations, reviewed this report prior to issuance and stated
the report accurately reflects the initiatives taken to prevent and reduce grievances filed
and backlogged. Because the report does not contain any recommendations, no written
response from management was required.



                                                    18
Nature of Grievances and the Initiatives Taken to                            HM-OT-05-001
 Reduce and Prevent Them


We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Mary Anne Gibbons
    Steven R. Phelps




                                                    19
Nature of Grievances and the Initiatives Taken to              HM-OT-05-001
 Reduce and Prevent Them


                             APPENDIX A. ABBREVIATIONS

APWU            American Postal Workers Union
DRP             Dispute Resolution Process
DRT             Dispute Resolution Team
FY              Fiscal Year
GAO             Government Accountability Office
GATS            Grievance-Arbitration Tracking System
HRIS            Human Resource Management Information System
JCAM            Joint Contract Administration Manual
MOU             Memorandum of Understanding
NALC            National Association of Letter Carriers
NPA             National Performance Assessment
NPMHU           National Postal Mail Handlers Union
NRLCA           National Rural Letter Carriers’ Association
OIG             Office of Inspector General
PFP             Pay for Performance
Q&A             Questions and Answers
VOE             Voice of the Employee




                                                    20
Nature of Grievances and the Initiatives Taken to                                                    HM-OT-05-001
 Reduce and Prevent Them



               APPENDIX B. GRIEVANCE-ARBITRATION PROCESS
The flowcharts below demonstrate the grievance-arbitration process steps of the
four major unions—the APWU, the NPHMU, the NRLCA, and the NALC.

    APWU, NPHMU, and NRLCA                                              NALC
   Grievance-Arbitration Process                              Grievance-Arbitration Process

   Incident: An employee and/or union                         Incident: An employee and/or union
   representative feels aggrieved.                            representative feels aggrieved.



   Step 1 Meeting: Informal meeting with                      Step A Meeting: Informal meeting with
   the employee/steward and supervisor within                 the employee/steward and supervisor within
   14 days after the issue occurs. This step                  14 days after the issue occurs. This step
   authorizes the supervisor and union                        authorizes the supervisor and union
   representative to settle the grievance.                    representative to resolve the grievance.




   Step 2 Meeting: Appeal to the installation                 Step A Meeting: Formal meeting with the
   head/designee, such as the postmaster (NRLCA               installation head/designee, such as the
   appeals to the appropriate District Human                  postmaster, no later than 7 days after the
   Resources manager) within 7 days after appeal              informal Step A meeting. This step authorizes
   to the Step 2. This step authorizes the                    the installation head/designee to settle the
   installation head/designee to settle the                   grievance.
   grievance.




   Step 3 Meeting: Appeal to management                       Step B Meeting: Appeal to the DRT. A
   official at the Grievance and Arbitration                  decision is reported within 14 days. One of the
   Processing Center. (NRLCA appeal to a union                team’s options is to return the grievance back to
   Step-3 representative and a management Step 3              formal Step A for reconsideration.
   representative). Meeting with the employer’s
   Step 3 representative and a union representative
   must be held within 15 days after the appeal to
   Step 3.




   Step 4: Appeal to Arbitration at the                       Arbitration: Appeal to Arbitration at
   national level within 30 days if national parties          the national level within 30 days if national
   fail to reach agreement within 60 days. Only               parties fail to reach agreement within 60 days.
   cases involving interpretative issues of the               Only cases involving interpretative issues of the
   national agreement are heard at the national               national agreement are heard at the national
   level. All decisions of an arbitrator are final and        level. All decisions of an arbitrator are final and
   binding.                                                   binding.




Source: National agreements with the Postal Service and the APWU, NALC, NPHMU, and NRLCA




                                                         21
Nature of Grievances and the Initiatives Taken to                            HM-OT-05-001
 Reduce and Prevent Them


        APPENDIX C. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to determine: (1) the nature of backlogged grievances for FYs 1999
through 2004 by location and identify any trends that indicate systemic issues, and
(2) the effectiveness of the initiatives the Postal Service has implemented to reduce the
number of backlogged grievances and to prevent the filing of new grievances.

To accomplish our objectives, we interviewed Postal Service management; analyzed
grievance-arbitration data extracted from the GATS; reviewed the OIG’s March 2004
Semiannual Report to Congress; and obtained bargaining employee data contained in
the Human Resource Management Information System (HRIS) for FY 2002 and the
Postal Service’s Annual Reports for FYs 1991-2001, 2003, and 2004. In addition, we
reviewed prior OIG audit reports; reviewed the national agreements and Web sites of
the APWU, NALC, NPMHU, and NRCLA; and evaluated the APWU-Postal Service and
NALC-Postal Service Joint Contract Manuals and the NPMHU’s Contract Interpretation
Manual. We also interviewed the presidents of the APWU, NPMHG, and NRLCA. The
NALC president could not meet with us due to other commitments. In addition, we
evaluated witness testimony from Senate Homeland Security and Governmental Affairs
Committee hearings conducted in February and March 2004.

We also researched the Postal Service’s intranet; and reviewed the President’s
Commission Report dated July 2003, the Postal Service’s Transformation Plan dated
April 2002, and the Postal Service’s Transformation Plan Progress Reports dated
November 2003 and November 2004. In addition, we reviewed GAO and Postal
Service OIG reports written on the subject matter.

We also obtained labor-management cost data for FYs 2000 through 2004 and
estimated some costs through the end of FY 2005. This data included arbitrators’ costs,
grievance settlements, interest back pay, and steward costs. In addition, we obtained
salary information for Labor Relations personnel from the HRIS for FYs 2000 through
2004. We also obtained some cost data related to other labor-management issues from
the Postal Service’s Law Department including arbitration, Merit Systems Protection
Board, and Equal Employment Opportunity award payments the Postal Service made in
FYs 2000 through 2004. In addition, we interviewed Postal Service Labor Relations
personnel to ensure data provided to support our findings was properly extracted from
the application system, if grievance settlement costs and arbitration payments were
being captured in GATS, and why costs increased/decreased from previous years.

We conducted the review from October 2004 through September 2005, and discussed
our observations and conclusions with appropriate management officials and included
their comments where appropriate. We did not determine the reliability of the data and
did not rely solely on the data to draw the conclusions and recommendations contained
in this report. We used the data as an indicator of the Postal Service’s progress to
resolve grievances. However, an OIG Computer Assisted Assessment Techniques
employee verified grievance-arbitration data with Postal Service management to ensure



                                                    22
Nature of Grievances and the Initiatives Taken to                            HM-OT-05-001
 Reduce and Prevent Them


data provided to support our findings was properly extracted from the application
system.




                                                    23
Nature of Grievances and the Initiatives Taken to                             HM-OT-05-001
 Reduce and Prevent Them



                       APPENDIX D. PRIOR AUDIT COVERAGE
U.S. Postal Service, Labor-Management Problems Persist on the Workroom Floor
Volumes I and II (Report Number GAO/GGD-94-201A and -201B, September 29, 1994).
The GAO reviewed the labor-management conflict that existed on the workroom floor of
the vast mailing processing plants and post offices; and past and current efforts by the
Postal Service, employee unions, and management associations to end the conflict.
The GAO found adversarial labor-management relations at the national level and
long-standing quality of work/life issues on the workroom floor. The GAO detailed the
labor-management environment in the Postal Service and included the opinions of
Postal Service management, union officials, management association officials and
employees on the underlying causes of workroom conflict. The report also identified
past and current initiatives to change that climate. The GAO made several
recommendations, including establishment of a framework agreement to develop
common goals and strategies, and the development and testing of approaches for
improving working relations at Postal Service sites. The Postal Service accepted the
report’s recommendations stating they were very ambitious, but needed in order to
resolve the longstanding problems. The Postal Service also indicated it was more than
willing to continue to work closely and cooperatively with union and management
associations at all levels and would take a number of corrective actions to improve the
conditions found in the report, including the establishment of an Associate Supervisor
Program, designed to prepare candidates to assume Postal Service supervisory
positions; and a task force consisting of Postal Service management, the four major
unions, and three management associations, to address the labor-management
relations problems discussed in the report.

U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems (Report Number GAO/GGD-98-1, October 1, 1997). The GAO reviewed the
Postal Service’s efforts to improve employees’ working conditions and the overall
performance of the Postal Service as identified in their 1994 report. It focused on:
(1) the status and results of efforts to improve various labor-management relations
problems, including how the Postal Service implemented specific improvement
initiatives and (2) approaches that could help the Postal Service and its four major labor
unions and management associations achieve consensus on how to deal with the labor
problems. In general, the GAO found the Postal Service had not made significant
progress in improving labor-management relations problems and the problems
contributed to a contentious work environment, lower productivity, and increased
employee grievances. The GAO provided the Postal Service with no recommendations.
In its response, the Postal Service agreed that little progress had been made in the last
several years in resolving the long-standing labor-management problems, and stated
that, on the whole, progress toward more productive relations between Postal Service
management and the unions had been limited, isolated, and generally less than
impressive.

Supervisor Knowledge of Union Contracts (Report Number LM-MA-98-001,
September 30, 1998). The report found supervisors needed a better understanding of

                                                    24
Nature of Grievances and the Initiatives Taken to                              HM-OT-05-001
 Reduce and Prevent Them


the union contracts. A better understanding of union contracts could help supervisors
avoid actions that give rise to grievances and would facilitate resolution of more
grievances at earlier stages of the process.

Grievance and Arbitration Management Information (Report Number LR-MA-99-001,
March 26, 1999). The report found systems were not in place to monitor, track, or
analyze grievance arbitration activity, to include capturing key costs. The report states
that in the opinion of the OIG, if such information existed, Postal Service managers
could analyze trends and patterns within their areas and districts, and headquarters
labor relations staff could more easily identify systemic issues throughout the Postal
Service. To capture key costs associated with grievances, the OIG recommended the
Postal Service modify the Grievance and Arbitration System.

Effectiveness of United States Postal Service Grievance-Arbitration Procedures (Report
Number LM-MA-99-002, March 26, 1999). The report found Step 1 and 2 grievance-
arbitration procedures were not administered in accordance to the national agreements,
resulting in grievances not being resolved at the lowest level possible. To continue to
improve the labor-management relationship and the grievance-arbitration process, it
was recommended the performance evaluation system for Postal Service supervisors
and managers include compliance with the grievance-arbitration procedures.

USPS Labor and Management Workplace Disputes (Report Number LR-AR-99-002,
March 31, 1999). The report found workplace disputes were not resolved before
becoming formal grievances. To improve labor-management relations and to resolve
grievances at the lowest level possible, the OIG recommended the Postal Service and
its unions continue their joint proactive efforts for improving the understanding of the
grievance-arbitration process and the responsibilities of labor and management.

Postal Service and Union Labor Relations (Report Number LR-AR-03-012,
September 30, 2003). The OIG reported on the status of corrective actions taken to
implement their prior suggestions/recommendations to the Postal Service related to
resolving grievances as early as practical. The report established that management did
not fully implement most of the recommendations/suggestions. The report also
identified external best practices that would improve the Postal Service grievance and
arbitration practices (resolve grievances timely and at the lowest possible step and
improve labor-management relations). Further, the report found the Postal Service did
not have current data on all costs associated with labor-management issues resulting in
the Postal Service’s inability to accurately identify areas for potential cost savings.




                                                    25
Nature of Grievances and the Initiatives Taken to                               HM-OT-05-001
 Reduce and Prevent Them


        APPENDIX E. DESCRIPTIONS FOR TYPES OF GRIEVANCES
          FILED AND BACKLOGGED IN FYs 1999 THROUGH 2004

The following grievance descriptions correspond with the articles and sections of the
national agreements between the Postal Service and its four major unions. The
grievance descriptions are as follows and pertain to the top 10 types of grievances
contained in Appendices F and G of this report:

    •   Casuals employed “in lieu of.” This issue coincides with Article 7, Section 1.
        These grievances pertain to employee classifications and the use of the regular
        work force to include full-time, part-time, and supplemental employees such as
        casuals and transitional employees.
    •   Clerk craft. This issue coincides with Article 37, Section 10. These grievances
        are related to duty assignments for the clerk craft to include preferred duty
        assignment, bid, application, abolishment, reversion of position, residual
        vacancy, etc.
    •   Cross craft assignments. This issue coincides with Article 7, Section 2C. These
        grievances relate to the assignment of bargaining unit employees from one craft
        to another (e.g., clerk to letter carrier or maintenance to mail handler). Normally
        management will not combine different crafts, occupational groups, or levels into
        one job. For flexibility purposes, management may cross crafts, occupational
        groups, or levels only after certain actions have taken place.
    •   Discipline procedure. This issue coincides with Article 16. These grievances
        relate to the administration of discipline.
    •   Employee classification. This issue coincides with Article 7 and is general in
        nature. These grievances relate to provisions establishing limits on the
        workhours of noncareer casual and transitional employees to protect career
        employment and the workhours of career employees.
    •   Employment and work assignments. This issue coincides with Article 7,
        Section 2. These grievances relate to employment and work assignments.
    •   Grievance and arbitration process. This issue coincides with Article 15 and is
        general in nature. These grievances relate to the steps followed in the
        grievance-arbitration process.
    •   Handbooks and manuals. This issue coincides with Article 19 and is general in
        nature. These grievances are related to changes management makes to
        handbooks, manuals, and policies directly related to wages, hours, or working
        conditions at the national or local level. Any changes must be fair, reasonable,
        and equitable and not in conflict with the national agreements.
    •   Letters of warning. This issue coincides with Article 16, Section 3. These
        grievances relate to the disciplinary action Letter of Warning.
    •   Management’s rights to direct employees. This issue coincides with Article 3.
        These grievances allege violations of management’s rights to direct employees in

                                                    26
Nature of Grievances and the Initiatives Taken to                                HM-OT-05-001
 Reduce and Prevent Them


        the performance of official duties, including hiring, promoting, transferring,
        assigning, retaining, taking disciplinary action, determining how operations will be
        conducted, etc.
    •   Overtime assignments. This issue coincides with Article 8, Section 5. These
        grievances relate to how management assigns overtime to employees.
    •   Overtime work. This issue coincides with Article 8, Section 4. These grievances
        relate to the rate of overtime pay (e.g., time and a half) and when management
        will pay overtime to employees for work performed (e.g., after 8 hours in a work
        day or after 40 hours a work week).
    •   Performance of bargaining unit work. This issue coincides with Article 1. These
        grievances relate to the performance of bargaining unit work to include
        prohibitions and exceptions for post offices with more than or less than
        100 bargaining unit employees, emergencies, training, proper operation of
        equipment, safety, and protecting Postal Service property.
    •   Reversion of position. This issue coincides with Article 37, Section 17. A
        reversion of position is a management decision to reduce the number of duty
        assignments in an installation when there are vacancies in the installation’s duty
        assignments.
    •   Safety and health. This issue coincides with Article 14. These grievances relate
        to the process for ensuring safe working conditions exist at all installations.
    •   Suspensions of 14 days or less. This issue coincides with Article 16, Section 4.
        These grievances relate to the disciplinary action “Suspensions of 14 days or
        less.”
    •   Suspensions of more than 14 days. This issue coincides with Article 16,
        Section 5. These grievances relate to the disciplinary action “Suspensions of
        more than 14 days” or “Discharge.”
    •   Unilateral action. This issue coincides with Article 5 and is general in nature.
        These grievances are related to unilateral actions taken by Postal Service
        management that affect wages, hours, or other terms and conditions of
        employment.
    •   Workhours. This issue coincides with Article 8 and is general in nature. These
        grievances are related to workhours issues with work schedules, overtime
        assignments, Sunday premium pay, night differential, and wash-up time.




                                                    27
    Nature of Grievances and the Initiatives Taken to                                                         HM-OT-05-001
     Reduce and Prevent Them


             APPENDIX F. TOP 10 TYPES OF GRIEVANCES FILED FOR
                           FYs 1999 THROUGH 2004

    The table below shows the top 10 types of grievances filed for FYs 1999 through 2004.

 #1-10                                              Top 10 Grievances Filed by Fiscal Year
Ranking
of Issue        FY 1999             FY 2000               FY 2001             FY 2002             FY 2003             FY 2004
               Overtime            Letters of            Letters of          Letters of          Letters of          Letters of
              assignments           warning               warning             warning             warning             warning
  #1
            Handbooks and         Overtime               Cross craft        Cross craft         Overtime             Cross craft
               manuals           assignments            assignments        assignments         assignments          assignments
  #2
               Letters of         Cross craft         Handbooks and       Suspensions of        Cross craft          Overtime
                warning          assignments             manuals          14 days or less      assignments          assignments
  #3
                                Suspensions of           Overtime         Handbooks and       Suspensions of
               Workhours                                                                                             Workhours
                                14 days or less         assignments          manuals          14 days or less
  #4
                                                      Suspensions of        Overtime                               Suspensions of
            Unilateral action     Workhours                                                     Workhours
                                                      14 days or less      assignments                             14 days or less
  #5
                                                                          Performance of                           Performance of
            Suspensions of      Handbooks and                                                 Handbooks and
                                                         Workhours        bargaining unit                          bargaining unit
            14 days or less        manuals                                                       manuals
  #6                                                                           work                                     work
                                                                                              Performance of
               Cross craft                                                                                        Handbooks and
                                Overtime work         Unilateral action     Workhours         bargaining unit
              assignments                                                                                            manuals
  #7                                                                                               work
                                Grievance and         Performance of                                               Grievance and
               Employee
                                  arbitration         bargaining unit     Unilateral action   Unilateral action      arbitration
              classification
  #8                               process                 work                                                       process
                                Performance of        Grievance and       Grievance and
               Safety and                                                                        Discipline
                                bargaining unit         arbitration         arbitration                           Unilateral action
                health                                                                           procedure
  #9                                 work                process             process
             Grievance and                                                                    Grievance and
                                                         Employee            Discipline                              Discipline
               arbitration      Unilateral action                                               arbitration
                                                        classification       procedure                               procedure
  #10           process                                                                          process
    Source: GATS
    Note: The number one issue represents the grievance issue filed most frequently.




                                                               28
    Nature of Grievances and the Initiatives Taken to                                                      HM-OT-05-001
     Reduce and Prevent Them


       APPENDIX G. TOP 10 TYPES OF BACKLOGGED GRIEVANCES FOR
                        FYs 1999 THROUGH 2004

    The table below shows the top 10 types of backlogged grievances filed for FYs 1999
    through 2004.

                                                Top 10 Backlogged Grievances by Fiscal Year
 #1-10
Ranking
of Issue        FY 1999             FY 2000              FY 2001             FY 2002             FY 2003             FY 2004

               Overtime           Overtime           Handbooks and         Cross craft         Cross craft         Cross craft
              assignments        assignments            manuals           assignments         assignments         assignments
  #1
                                                                         Performance of
            Handbooks and         Cross craft           Cross craft                            Employee            Employee
                                                                         bargaining unit
               manuals           assignments           assignments                            classification      classification
  #2                                                                          work
                                Handbooks and
            Unilateral action                        Unilateral action   Unilateral action   Unilateral action   Unilateral action
                                   manuals
  #3
               Employee                                 Employee         Handbooks and       Handbooks and       Handbooks and
                                Unilateral action
  #4          classification                           classification       manuals             manuals             manuals
                                                                                             Performance of      Grievance and
            Suspensions of                              Overtime           Employee
                                  Workhours                                                  bargaining unit       arbitration
            14 days or less                            assignments        classification
  #5                                                                                              work              process
                                                      Performance of         Casuals
               Cross craft        Employee                                                     Overtime           Reversion of
                                                      bargaining unit       employed
              assignments        classification                                               assignments          positions
  #6                                                       work             “in lieu of”
            Suspensions of                                                                   Management’s        Performance of
                                Suspensions of                              Clerk craft
             more than14                                Workhours                            rights to direct    bargaining unit
                                14 days or less                               issues
  #7            days                                                                           employees              work
                                Grievance and
                                                        Clerk craft                                                 Clerk craft
              Work hours          arbitration                              Workhours           Workhours
                                                          issues                                                      issues
  #8                                process
             Management’s          Casuals              Casuals                                 Casuals              Casuals
                                                                           Overtime
             rights to direct     employed             employed                                employed             employed
                                                                          assignments
  #9           employees          “in lieu of”         “in lieu of”                            “in lieu of”         “in lieu of”
             Grievance and                           Employment and      Grievance and       Grievance and
                                   Letters of
                arbitration                               work             arbitration         arbitration         Workhours
                                    warning
  #10            process                              assignments           process              process
    Source: GATS
    Note: The number one issue represents the grievance issue with the largest backlog.




                                                              29
